No.

In The
Supreme Court of the United States
Sergei Vinkov,
Petitioner,
v.
Mark Smith et al.
Respondents
On Petition for Writ of Certiorari
to California Supreme Court,
Case Nos. S261198 & S263745

APPENDIX, Volume 2
to the
PETITION FOR A WRIT OF CERTIORARI
[Appendices-B-R; pages 86a-151a,
Excerpts of Records]
Sergei Vinkov
Pro Se
40795 Nicole Court,
Hemet, California,
92544
(951) 380 53 39
vinjkov@gmail.com

TABLE OF APPENDICES
Pages
APPENDIX-B. US Supreme Court Notice of Return
ofVinkov's Petition for Certiorari 10/02/2020.... 86a
APPENDIX-C. California Supreme Court's Denial

89a

(en banc) 09/16/20

APPENDIX-D. California Supreme Court's Denial
(en banc) 05/13/20................................................. 90a
APPENDIX-E. California Court of Appeal (4/2)'s
Denial 07/29/20...................................................... 91a
APPENDIX-F. California Court of Appeal (4/2)'s
Denial 03/05/20...................................................... 93a
APPENDIX-G. California Court of Appeal (4/2)'s
Reservation 02/27/20

94a

APPENDIX-H. California Court of Appeal (4/2)'s
Dismissal 01/31/20

95a

APPENDIX-I. Superior Court's Written Denial of
Judicial Recusal, 07/14/2020

97a

APPENDIX-J. The Superior Court's Minutes Order
striking Judicial Disqualification dated 01/23/2020

99a
APPENDIX-K. Superior Court's Minute Order
Denying Vinkov's Motion for Judgment on the
Pleadings 08/15/19.............................................. 100a
APPENDIX-L. Superior Court's Minute Order

i

Granting Plaintiffs Anti-SLAPP motion 07/10/19
101a
APPENDIX-M. Superior Court's Minute Order
Awarding Attorney's Fees for Anti-SLAPP motion
07/10/19................................................................ 103a
APPENDIX-N. Superior Court's Notice of Case
Management Conference 07/13/20.................... 104a
APPENDIX-O. Plaintiffs Complaint Filed
02/20/2019............................................................ 106a
APPENDIX-P. Excerpts of Defendant's Answer filed
03/21/2019

115a

APPENDIX-Q. Excerpts of Vinkov's Forth Verified
Statement of Disqualification filed 01/21/2020 135a
APPENDIX-R. Excerpts of Transcript of Hearing on
Vinkov's Motion for Judgment on the Pleadings
08/15/20

146a

n

APPENDIX-C. California Supreme Court's
Denial (en banc) 09/16/20
SUPREME COURT FILED
SEP 16 2020
Jorge Navarrete Clerk
Deputy
Court of Appeal, Fourth Appellate District, Division Two - No.
E075396
S263745

Order:
IN THE SUPREME COURT OF CALIFORNIA
En Banc
SERGEI VINKOV, Petitioner,
v.
SUPERIOR COURT OF RIVERSIDE COUNTY, Respondent,
MARK SMITH, Real Party in Interest

The petition for review is denied.

CANTIL-SAKAUYE
Chief of Justice

89a

APPENDIX-D. California Supreme Court's
Denial (en banc) 05/13/20
SUPREME COURT FILED
MAY 13 2020
Jorge Navarrete Clerk
Deputy
Court of Appeal, Fourth Appellate District, Division Two - No.
E074567
S261198

Order:
IN THE SUPREME COURT OF CALIFORNIA
En Banc
Sergei Vinkov, Petitioner,
v.
Superior Court of Riverside County, Respondent,
Mark Smith, Real Party in Interest
MCC1900188
The petition for review is denied.

CANTIL-SAKAUYE
Chief of Justice

90a

APPENDIX-E. California Court of Appeal
(4/2)'s Denial 07/29/20
Court of Appeal, Fourth Appellate
District, Division Two
Kevin J Lane, Clerk/Executive
Officer
Electronically FILED on 7 /29 /20 20
by B. Ramirez, Deputy Clerk
COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER
SERGEI VINKOV,
Petitioner,
v.
THE SUPERIOR COURT OF
RIVERSIDE COUNTY,
Respondent;
MARK SMITH et al„
Real Parties in Interest.

E075396
(Super.Ct.No. MCC1900188)
The County of Riverside

THE COURT
The petition for writ of mandate, request for immediate
stay, and request for judicial notice are DENIED.
RAPHAEL
Acting P.J.
Panel: Raphael
Menetrez
Ramirez
cc: See attached list
Page 2
MAILING LIST FOR CASE: E075396
Sergei Vinkov v. The Superior Court, Mark Smith et. al.
Superior Court Clerk
Riverside County
P.O. Box 431 - Appeals

91a

Riverside, CA 92502
Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544
Paul Aaron Levine
Angeloff & Angeloff & Levine
910 N State St
Suite C
Hemet, CA 92543
Bret David Lewis
Law Offices of Bret D. Lewis
12304 Santa Monica Blvd.,
107A
Los Angeles, CA 90025

92a

APPENDIX-F. California Court of Appeal
(4/2)'s Denial 03/05/20
Court of Appeal, Fourth Appellate
District, Division Two Kevin J. Lane,
Clerk/Executive Officer
Electronically FILED on 3/5/2020 by
C. Daniels, Deputy Clerk
COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER
SERGEI VINKOV,
Petitioner,
v.
THE SUPERIOR COURT OF
RIVERSIDE COUNTY,
Respondent
MARK SMITH,
Real Party in Interest.

E074567
(Super.Ct.No. MCC1900188)
The County of Riverside

THE COURT
The petition for writ of mandate and request for
immediate stay are DENIED. The request for judicial notice
filed on February 26, 2020, by petitioner is DENIED.
McKINSTER
Acting P.J.
Panel: McKinster
Miller
Raphael
cc:
Superior Court Clerk
Riverside County
P.O. Box 431 - Appeals
Riverside, CA 92502

Paul Aaron Levine
Angeloff & Angeloff & Levine
910 N State St
Suite C
Hemet, CA 92543

Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544

93a

APPENDIX-G. California Court of Appeal
(4/2)'s Reservation 02/27/20
Court of Appeal, Fourth Appellate District, Division Two
Kevin J. Lane, Clerk/Executive Officer
Electronically FILED on 2/27/2020 by
C. Daniels, Deputy Clerk
COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER
E074567

SERGEI VINKOV,
Petitioner,

(Super.Ct.No. MCC1900188)
v.
The County of Riverside
THE SUPERIOR COURT OF
RIVERSIDE COUNTY,
Respondent
MARK SMITH,
Real Party in Interest.
THE COURT
The court has considered petitioner's request filed
February 26, 2020, for judicial notice. Ruling is RESERVED
for consideration with the writ petition on the request for
judicial notice. The parties may discuss the matters of which
judicial notice is requested in any documents remaining to be
filed. However, if the court does not take judicial notice of the
requested matters, any discussion of them in the documents
will be disregarded.
RAMIREZ
Presiding Justice
cc:

Superior Court Clerk
Riverside County
P.O. Box 431 - Appeals
Riverside, CA 92502
Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544

Paul Aaron Levine
Angeloff & Angeloff & Levine
910 N State St Suite C
Hemet, CA 92543

94a

APPENDIX-H.California Court of Appeal
(4/2)'s Dismissal 01/31/20
Court of Appeal, Fourth Appellate
District, Division Two Kevin J. Lane,
Clerk/Executive Officer
Electronically FILED on 1/31/2020 by
R. Hance, Deputy Clerk
COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER
MARK SMITH et al„
Plaintiffs and Respondents,

E074263
(Super.Ct.No. MCC1900188)

v.
The County of Riverside
SERGEI VINKOV,
Defendant and Appellant.
THE COURT
This court has reviewed the civil case information
statement received on December 18, 2019, from appellant,
which states that the order appealed from was entered July
10, 2019, and notice of entry of judgment was served on July
23, 2019. A motion for reconsideration was filed July 22, 2019
and denied October 1, 2019. The notice of appeal was filed in
the superior court on December 6, 2019. Because the appeal is
untimely, it must be and is DISMISSED.
California Rules of Court, rule 8.104(a) provides that a
notice of appeal must be filed within 60 days following the
In this case, the notice of
service of notice of entry,
appeal was filed 136 days following service of notice of entry
of judgment. The timeliness requirement is absolutely
jurisdictional. There are no exceptions other than those
provided in California Rules of Court, rule 8.108. (Hollister
Convalescent Hosp., Inc v. Rico (1975) 15 Cal.3d 660, 666-667;
Estate of Hanley (1943) 23 Cal.2d 120, 122.) Because
appellant filed a motion for reconsideration, the time to
appeal was extended until the earliest of: (1) 30 days after the
service of an order denying the motion, (2) 90 days after the

95a

motion to reconsider is filed, or (3) 180 days after the entry of
the appealable order. (Cal. Rules of Court, rule 8.108(e).) The
motion for reconsideration was filed July 22, 2019 and denied
on October 1, 2019, and the civil case information statement
indicates that notice of entry of that denial was served on
October 1, 2019.
Under California Rules of Court, rule 8.108(e)(2), the
notice of appeal was due on or before October 20, 2019. Thus,
the notice of appeal was untimely filed more than 90 days
after the motion to reconsider was filed, and this court has no
jurisdiction over this appeal.

FIELDS
Acting P.J.
cc: See attached list
Page 2
MAILING LIST FOR CASE: E074263
Mark Smith et. al. v. Sergei Vinkov
Superior Court Clerk
Riverside County
P.O. Box 431 - Appeals
Rivei'side, CA 92502
Paul Aaron Levine
Angeloff & Angeloff & Levine
910 N State St
Suite C
Hemet, CA 92543
Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544

96a

APPENDIX-I.

Superior Court's Written Denial of
Judicial Recusal, 07/14/2020

Sergei Vinkov
40795 Nicole Court, Hemet,
CA 92544
Mobile 951.380.5339
E-mail vinjkov@gmail.com
Defendant / CrossComplainant, In Pro Per

FILED
Superior Court of California
County of Riverside
07/14/2020
s/

A. True

SUPERIOR COURT OF THE STATE OF
CALIFORNIA
FOR THE COUNTY OF RIVERSIDE
Mark Smith, Solar Forward,

Case No.: MCC1900188
SMITH VS VINKOV
Unlimited Jurisdiction

Plaintiffs
vs.

Sergei Vinkov,
Defendant

SERGEI VINKOV'S
PEREMPTORY
CHALLENGE
[Judicial Disqualification
under §170.6 CCP]
Department: S302
Judge: Hon. Judge Angel M.
Bermudez
Case Management
Conference: 09/09/2020
Time: 8.30 am
Trial date: not set

I, Sergei Vinkov, declare:
1. I am a party to the civil action in the Superior Court of the
State of California for County of Riverside - Southwest Justice
Center, case # MCC1900188, case name "Smith vs. Vinkov",
action filed on 02/20/2019, the state jurisdiction was
terminated on 06/03/2020.

97a

2. The case returned to the sate court and re-assigned to
Department S-302, Judge Angel M. Bermudez.
Page 2
3. Judge Angel M. Bermudez before whom the action is re­
assigned is prejudiced against me, or interests of mine, and I
cannot believe I can have a fair and impartial trial or hearing
before Hon. judge Angel M. Bermudez.
4. This declaration of prejudice is made at least 15 court days
before the scheduled hearing on 09/09/2020 (Case
Management Conference) and within 4 days of my first
appearance after this case remanded (filed notice of the
district court on 07/10/2020) from the federal jurisdiction and
the reassignment to the same judge, Hon. Angel Manuel
Bermudez (Department S-302). The federal court order to
remand the case issued and certified on 07/07/2020.
5. I did not find any specific authorities which regulate
application of California Code of Civil Procedure §170.6 (CCP
§170.6) to the cases which were returned to the state court
from
jurisdiction.
I
used
the
federal
https://www.lexisnexis.com/ accessible via the website of
California Supreme Court to conduct my legal research. I
have no any prior successful preemptory challenges in this
court under CCP §170.6.
6. Based on the foregoing, pursuant to the provisions of CCP
§170.6 I request that this case be assigned to another judicial
officer for further proceedings
I declare under penalty of perjury under the laws of the State
of California that the foregoing
is true and correct.
Executed July 14, at Hemet, California.
s/

Sergei Vinkov, Pro Se, Defendant
The Request for disqualification of judicial officer pursuant to
CCP 170.6 has been reviewed and Is hereby:
Approved
S Not Approved, Reason: The challenge is denied as untimely
s/

By: judicial officer A. Bermudez

98a

APPENDIX-J.
The Superior Court’s Minutes Order
striking Judicial Disqualification dated 01/23/2020

Superior Court of California, County of Riverside
Superior Court of California
Minute Order/Judgment
Case No: MCC1900188 Date: 01/23/20 DEPT: S302
Case Name: SMITH VS VINKOV
Case Category: Defamation-Over $25,000 (Southwest)
Action Description: Court on its Own Motion: Statement of
Disqualification filed on 01/21/20 is Stricken
**********************************************************
Honorable Judge Angel M. Bermudez, Presiding
Clerk: A. Behrmann
Court Reporter: None
No appearance made by either party.
On Court's Own Motion:
Defendant Sergei Vinkov has filed his fifth statement of
disqualification which he has erroneously entitled "Sergei
Vinkov's Forth (sic) Verified Statement of Disqualification of
Judge Angel Bermudez." Defendant's fifth statement of
disqualification fails to set forth facts constituting new
grounds for disqualification and is repetitive of his
priorchallenges. In addition, defendant's fifth statement of
disqualification fails to state facts which constitute grounds
for disqualification of this court. Accordingly, defendant's fifth
statement of disqualification, erroneously entitled "Sergei
Vinkov's Forth (sic) Verified Statement of Disqualification of
Judge Angel Bermudez" is hereby stricken pursuant to Code of
Civil Procedure section 170.4, subdivisions (b) and (c).
Notice to be given by Clerk
Hearing held: Pre-disposition hearing.

99a

APPENDIX-K. Superior Court's Minute Order
Denying Vinkov's Motion for Judgment on the
Pleadings 08/15/19

Superior Court of California, County of Riverside
Superior Court of California
Minute Order/Judgment
Case No: MCC1900188 Date: 08/15/19 DEPT: S302
Case Name: SMITH VS VINKOV
Case Category: Defamation-Over $25,000 (Southwest)
HEARING: Hearing re: Motion to/for Judgment on the
Pleadings by SERGEI VINKOV
**********************************************************
Honorable Judge Angel M. Bermudez, Presiding
Clerk: A. True
Court Reporter: J. Fogleman
MARK SMITH, SOLAR FORWARD represented by
Paul L. LeVine
ANGELOFF, ANGELOFF & LEVINE
present.
SERGEI VINKOV represented by/in Daniel L. Ferguson
specially appearing At 9:01, the following proceedings were
held:
Court has read and considered documents relating to this
matter.
Court's tentative is issued.
There is request for oral argument.
Court inquires of defense counsel regarding limited scope of
representation.
Argument presented by Daniel L. Ferguson.
Tentative Ruling shall become the Ruling of the Court.
The Motion is denied.
The Motion is DENIED. All three causes of action appear to be
sufficiently alleged. Challenges raised in this motion go to the
merits of the case, not the defects in pleading. Although
allusions to defects are made, the defects in the pleading are
not identified.
Notice waived.

100a

APPENDIX-L.
Superior Court's Minute Order
Granting Plaintiffs Anti-SLAPP motion 07/10/19

Superior Court of California, County of Riverside
Superior Court of California
Minute Order/Judgment
Case No: MCC1900188 Date: 07/10/19 Time: 8:30 DEPT: S302
Case Name: SMITH VS VINKOV
Case Category: Defamation-Over $25,000 (Southwest)
HEARING: Hearing re: Motion to/for Strike Under CCP
425.16 (Anti-Slapp Statute) by MARK SMITH, SOLAR
FORWARD
***********************************************************
Honorable Judge Angel M. Bermudez, Presiding
Clerk: A. Behrmann
Court Reporter: None
At 8:30, the following proceedings were held:
No appearance made by either party.
Court has read and considered documents relating to this
matter.
Court's tentative is issued.
There is no request for oral argument
Tentative Ruling shall become the Ruling of the Court.
The Motion is granted.
The motion to strike the cross-complaint under Code of Civil
Procedure section 425.16 filed by cross-defendants is
GRANTED.
Cross Complaint of VINKOV dismissed
Analysis:
The court finds that cross-defendants meet the first prong of
the analysis under section 425.16(e)(l)(2) because the cross­
complaint arises from cross-defendants' complaint they filed in
this action. See paragraphs 41, 44, 49 and 55 of the CrossComplaint.
Cross-complainant fails to meet his burden on the second
prong of the analysis because he has failed to present
admissible evidence that he has a reasonable probability of
prevailing on his claims. The claims raised against defendants
in plaintiffs first amended complaint are also subject to the
litigation privilege under Civil Code section 47. (Flatley v.
Mauro (2006) 39 Cal.4th 299, 322-23 litigation privilege as an
aid in construing the sope of subdivision (e) (1) and (2) with
respect to the first step of the two-step anti-SLAPP inquirythat is, by examining the scope of the litigation privilege to
101a

determine whether a given communication falls within the
ambit of subdivisions (e) (1) and (2). ").)
Notice of ruling to be prepared, served and submitted by
prevailing party.

102a

APPENDIX-M. Superior Court's Minute Order
Awarding Attorney's Fees for Anti-SLAPP motion
07/10/19

Superior Court of California, County of Riverside
Superior Court of California
Minute Order/Judgment
Case No: MCC1900188 Date: 08/19/19 Time: 8:30 DEPT: S302
Case Name: SMITH VS VINKOV
Case Category: Defamation-Over $25,000 (Southwest)
HEARING: Hearing re: Motion to/for Mandatory fees and
costs under California's Anti-SLAPP law by MARK
SMITH, SOLAR FORWARD
********tfr***tfc******ik*:fc’***ifc’****il?*llr*iAr** ****** *•*★****★*★****•*•

Honorable Judge Angel M. Bermudez, Presiding
Clerk: A. True
Court Reporter: None
MARK SMITH, SOLAR FORWARD represented by
ANGELOFF, ANGELOFF & LEVINE - Paul A. LeVine
present.
SERGEI VINKOV represented by BORTON PETRINI LLP Daniel L. Ferguson present.
Sergei Vinkov-present appearing via CourtCall.
At 8:30, the following proceedings were held:
Court has read and considered documents relating to this
matter.
Court's tentative is issued.
There is no request for oral argument.
Tentative Ruling shall become the Ruling of the Court.
The Motion is granted.
The Motion is GRANTED and Attorneys' Fees and Costs of
$9,185.00 is awarded.
"(A) prevailing defendant on a special motion to strike shall be
entitled to recover his or her attorney's fees and costs." (C.C.P.
section 425.16(c) (1)). Counsel's billable rate was $350.00.
There is also a legal assistant rate of $150.00. Both of these
rates appear reasonable. The amount of time spent by
Plaintiffs' counsel appears reasonable given the complexity of
a special motion to sti’ike. In this age of legal practice legal
assistants and paralegals are integral to the practice. As such,
the legal assistant's time of 3.6 hours is reasonable. Notice of
ruling to be prepared, served and submitted by prevailing
party.

103a

APPENDIX-N. Superior Court's Notice of Case
Management Conference 07/13/20

SUPERIOR COURT OF CALIFORNIA COUNTY OF
RIVERSIDE
30755-D Auld Road Murrieta,
CA
92563
www. riverside, courts.ca.gov
NOTICE OF CASE MANAGEMENT CONFERENCE
MARK SMITH
vs
SERGEI VINKOV

CASE NO. MCC1900188

TO: SERGEI VINKOV 40795 NICOLE COURT
HEMET CA 92544
The above entitled case has been scheduled for a Case
Management Conference for 09/09/20 at 8:30 in Department
S302. at the above address.
The clerk's office shall notice all parties having appeared in
this case. The plaintiff/cross-complainants shall serve a copy of
this notice on all defendants subsequently added to the
complaint and/or cross-complaints and file proof of service
thereof.
Any challenge pursuant to Section 170.6 of the Civil Code of
Procedure shall be made within twenty (20) days (15 days
pursuant to 68616(1) GC plus 5 days pursuant to 1013(a) CCP
from the date of this notice of assignment, or if the party has
not yet appeared, then within fifteen (15) days after the
party's first appearance.
Requests for accommodations can be made by submitting
Judicial Council form MC-410 no fewer than five court days
before the hearing. See CA Rules of Court, rule 1.100.
CERTIFICATE OF MAILING
I certify that I am currently employed by the Superior Court of
California, County of Riverside, and that I am not a party to
this action or proceeding. In my capacity, I am familiar with
the practices and procedures used in connection with the
mailing of correspondence.
Such correspondence is deposited in the outgoing mail of the
Superior Court. Outgoing mail is delivered to and mailed by
the United States Postal Service, postage prepaid, the same

104a

day in the ordinary course of business. I certify that I served a
copy of the foregoing notice on this date, by depositing said
copy as stated above.
Court Executive Officer / Clerk
Dated: 07/13/20

s/
By
DIANNE ROMO, Deputy Clerk

105a

No.

In The
Supreme Court of the United States
Sergei Vinkov,
Petitioner,
v.
Mark Smith et al.,
Respondents
On Petition for Writ of Certiorari
to California Supreme Court,
Case Nos. S261198 & S263745

APPENDIX, Volume 1
to the
PETITION FOR A WRIT OF CERTIORARI
[Appendix-A; pages la-85a; Constitutional,
Statutory Provisions, Treaties and other
Regulations]
Sergei Vinkov
Pro Se
40795 Nicole Court,
Hemet, California,
92544
(951) 380 53 39
vinjkov@gmail.com

TABLE OF APPENDICES
Pages
APPENDIX-A.

CONSTITUTIONAL AND

STATUTORY PROVISIONS
Constitutional Provisions.........
CA Const.,
art. VI, §18.1.....................
art. VI, §19........................
art. XX Misc. Subj., Sec. 3
US Const.,
amend. I............................
amend. V...........................
amend. XIV, §1.................
art. Ill, §2, cl.l..................
art. IV, §2, cl.l..................
art. VI................................
Statutes....................
26 USC §501(c)(3)
28 USC
§2403(b).....................................
§1254(1).....................................
§1257(a).....................................
§ 1447(c).....................................
§ 1447(d).....................................
42 USC §14503(a)(l)......................
47 USC §230(c)(2)..........................
California Civil Code §§ 45, 46.....
California Code of Civil Procedure
§116.430................................
§170.1(a)(7)............................
§170.3(c)(1)............................
§170.3(c)(4)............................
§170.3(d)................................
§170.1(6)(A)............................
§1775.5..................................
§410.10..................................
i

la
la
la
la
la
2a
2a
3a
3a
3a
4a
4a
4a
5a
5a
5a
5a
6a
6a
6a
6a
7a
7a
8a
8a
8a
8a
9a
9a

§425.16(b)(1)
§425.16(c)(2).
§425.17(c)...
§430.20(a)...
§430.20(b)...
§438
§581d...........................
§904.1(a) 13...................

9a
9a
9a
10a
10a
11a
14a
14a

California Corporations Code
14a
§§9240-9247.....................
26a
§9224(c)............................
California Evidence Code
§452(d)................................................... 26a
§452(h).................................................. 27a
California Government Code §87100....... 27a
Miscellaneous................................................. 27a
Order List: 589 U.S. 3/19/2020.................. 27a
82 FR 21675 Promoting Free Speech and
Religious Liberty.................................. 28a
82 FR 49668 Federal Law Protections for
Religious Liberty.................................. 30a
85 FR 34079 - Preventing Online Censorship

74a
Clark. J. L., American Law & Procedure,
Vol.4.§254. Torts. Chicago: La Salle
Extension University, 1924 at Pages 19483a
196
Hall James Parker, American Law & Procedure,
Vol.l2.§36 Constitutional Law. La Salle
Extension University, 1924 at Pages 35-36
................................................................... 84a

n

APPENDIX-A. CONSTITUTIONAL AND
STATUTORY PROVISIONS
Constitutional Provisions

CA Const., art. VI, §18.1
The Commission on Judicial Performance shall
exercise discretionary jurisdiction with regard to the
oversight and discipline of subordinate judicial officers,
according to the same standards, and subject to review
upon petition to the Supreme Court, as specified in
Section 18.
No person who has been found unfit to serve as a
subordinate judicial officer after a hearing before the
Commission on Judicial Performance shall have the
requisite status to serve as a subordinate judicial officer.
This section does not diminish or eliminate the
responsibility of a court to exercise initial jurisdiction to
discipline or dismiss a subordinate judicial officer as its
employee.
CA Const., art. VI, §19
The Legislature shall prescribe compensation for
judges of courts of record.
A judge of a court of record may not receive the
salary for the judicial office held by the judge while any
cause before the judge remains pending and
undetermined for 90 days after it has been submitted for
decision.
CA Const., art. XX Misc. Subj., Sec. 3
Members of the Legislature, and all public officers and
employees, executive, legislative, and judicial, except such
inferior officers and employees as may be by law exempted,
shall, before they enter upon the duties of their respective
offices, take and subscribe the following oath or affirmation:
., do solemnly swear (or affirm) that I will
“I,
support and defend the Constitution of the United States and
the Constitution of the State of California against all enemies,
foreign and domestic; that I will bear true faith and allegiance
to the Constitution of the United States and the Constitution
of the State of California; that I take this obligation freely,
without any mental reservation or purpose of evasion; and
la

that I will well and faithfully discharge the duties upon which
I am about to enter.
“And I do further swear (or affirm) that I do not advocate, nor
am I a member of any party or organization, political or
otherwise, that now advocates the overthrow of the
Government of the United States or of the State of California
by force or violence or other unlawful means; that within the
five years immediately preceding the taking of this oath (or
affirmation) I have not been a member of any party or
organization, political or otherwise, that advocated the
overthrow of the Government of the United States or of the
State of California by force or violence or other unlawful
means except as follows:
____ (If no affiliations, write in the words “No Exceptions”)
and that during such time as I hold the office of
(name of
office)____
I will not advocate nor become a member of any party or
organization, political or otherwise, that advocates the
overthrow of the Government of the United States or of the
State of California by force or violence or other unlawful
means.”
And no other oath, declaration, or test, shall be
required as a qualification for any public office or
employment.
“Public officer and employee” includes every officer
and employee of the State, including the University of
California, every county, city, city and county, district,
and authority, including any department, division,
bureau, board, commission, agency, or instrumentality of
any of the foregoing.
US Const., amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of
grievances.
US Const., amend. V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or

2a

indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.
US Const., amend. XIV, §1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.
US Const., art. Ill, §2, cl.l
The judicial power shall extend to all cases, in law
and equity, arising under this Constitution, the laws of
the United States, and treaties made, or which shall be
made, under their authority;-to all cases affecting
ambassadors, other public ministers and consuls;--to all
cases of admiralty and maritime jurisdiction;-to
controversies to which the United States shall be a
party;-to controversies between two or more states;-between a state and citizens of another state;--between
citizens of different states;-between citizens of the same
state claiming lands under grants of different states, and
between a state, or the citizens thereof, and foreign
states, citizens or subjects.
US Const., art. IV, §2, cl.l
The Citizens of each State shall be entitled to all
Privileges and Immunities of Citizens in the several
States.

3a

US Const., art. VI
All debts contracted and engagements entered into,
before the adoption of this Constitution, shall be as valid
against the United States under this Constitution, as
under the Confederation.
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme law
of the land; and the judges in every state shall be bound
thereby, anything in the Constitution or laws of any
State to the contrary notwithstanding.
The Senators and Representatives before mentioned,
and the members of the several state legislatures, and
all executive and judicial officers, both of the United
States and of the several states, shall be bound by oath
or affirmation, to support this Constitution; but no
religious test shall ever be required as a qualification to
any office or public trust under the United States.
Statutes
26 USC §501(c)(3)
(c)List of exempt organizations. The following
organizations are referred to in subsection (a):
(3)Corporations, and any community chest, fund, or
foundation, organized and operated exclusively for
religious, charitable, scientific, testing for public safety,
literary, or educational purposes, or to foster national or
international amateur sports competition (but only if no
part of its activities involve the provision of athletic
facilities or equipment), or for the prevention of cruelty
to children or animals, no part of the net earnings of
which inures to the benefit of any private shareholder or
individual, no substantial part of the activities of which
is carrying on propaganda, or otherwise attempting, to
influence legislation (except as otherwise provided in
subsection (h)), and which does not participate in, or
intervene in (including the publishing or distributing of
statements), any political campaign on behalf of (or in
opposition to) any candidate for public office.

4a

28 USC §2403(b)
(b)In any action, suit, or proceeding in a court of the
United States to which a State or any agency, officer, or
employee thereof is not a party, wherein the
constitutionality of any statute of that State affecting the
public interest is drawn in question, the court shall
certify such fact to the attorney general of the State, and
shall permit the State to intervene for presentation of
evidence, if evidence is otherwise admissible in the case,
and for argument on the question of constitutionality.
The State shall, subject to the applicable provisions of
law, have all the rights of a party and be subject to all
liabilities of a party as to court costs to the extent
necessary for a proper presentation of the facts and law
relating to the question of constitutionality.
28 USC §1254(1)
(l)By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or after
rendition of judgment or decree;
28 USC §1257(a)
(a)Final judgments or decrees rendered by the highest court
of a State in which a decision could be had, may be reviewed
by the Supreme Court by writ of certiorari where the validity
of a treaty or statute of the United States is drawn in question
or where the validity of a statute of any State is drawn in
question on the ground of its being repugnant to the
Constitution, treaties, or laws of the United States, or where
any title, right, privilege, or immunity is specially set up or
claimed under the Constitution or the treaties or statutes of, or
any commission held or authority exercised under, the United
States.
28 USC §1447(c)
(c)A motion to remand the case on the basis of any
defect other than lack of subject matter jurisdiction must
be made within 30 days after the filing of the notice of
removal under section 1446(a). If at any time before final
judgment it appears that the district court lacks subject
matter jurisdiction, the case shall be remanded. An order
remanding the case may require payment of just costs
and any actual expenses, including attorney fees,

5a

incurred as a result of the removal. A certified copy of
the order of remand shall be mailed by the clerk to the
clerk of the State court. The State court may thereupon
proceed with such case.
28 USC § 1447(d)
(d)An order remanding a case to the State court from
which it was removed is not reviewable on appeal or
otherwise, except that an order remanding a case to the
State court from which it was removed pursuant to
section 1442 or 1443 of this title shall be reviewable by
appeal or otherwise.
42 USC § 14503(a)(1)
(a)Liability protection for volunteers Except as
provided in subsections (b), (c), and (e), no volunteer of a
nonprofit organization or governmental entity shall be
liable for harm caused by an act or omission of the
volunteer on behalf of the organization or entity if—
(l)the volunteer was acting within the scope of the
volunteer’s responsibilities in the nonprofit organization
or governmental entity at the time of the act or omission;
47 USC §230(c)(2)
(c)Protection for “Good Samaritan” blocking and
screening of offensive material
(l)Treatment of publisher or speaker
No provider or user of an interactive computer
service shall be treated as the publisher or speaker of
any information provided by another information content
provider.
California Civil Code §§ 45, 46
§ 45 LIBEL, WHAT,
Libel is a false and
unprivileged publication by writing, printing, picture,
effigy, or other fixed representation to the eye, which
exposes any person to hatred, contempt, ridicule, or
obloquy, or which causes him to be shunned or avoided,
or which has a tendency to injure him in his occupation.

6a

§ 46 Slander is a false and unprivileged publication,
orally uttered, and also communications by radio or any
mechanical or other means which:
1. Charges any person with crime, or with having
been indicted, convicted, or punished for crime;
2. Imputes in him the present existence of an
infectious, contagious, or loathsome disease;
3. Tends directly to injure him in respect to his office,
profession, trade or business, either by imputing to him
general disqualification in those respects which the office
or other occupation peculiarly requires, or by imputing
something with reference to his office, profession, trade,
or business that has a natural tendency to lessen its
profits;
4. Imputes to him impotence or a want of chastity; or
5. Which, by natural consequence, causes actual
damage.
California Code of Civil Procedure §116.430
(a) If the plaintiff operates or does business under a
fictitious business name and the claim relates to that
business, the claim shall be accompanied by the filing of
a declaration stating that the plaintiff has complied with
the fictitious business name laws by executing, filing,
and publishing a fictitious business name statement as
required.
(b) A small claims action filed by a person who has
not complied with the applicable fictitious business name
laws by executing, filing, and publishing a fictitious
business name statement as required shall be dismissed
without prejudice.
(c) For purposes of this section, “fictitious business
name” means the term as defined in Section 17900 of the
Business and Professions Code , and “fictitious business
name statement” means the statement described in
Section 17913 of the Business and Professions Code .
California Code of Civil Procedure §170.1(a)(7)
(7)By reason of permanent or temporary physical
impairment, the judge is unable to properly perceive the
evidence or is unable to properly conduct the proceeding.

7a

California Code of Civil Procedure § 170.3(c)(1)
(c) (1) If a judge who should disqualify himself or herself
refuses or fails to do so, any party may file with the clerk a
written verified statement objecting to the hearing or trial
before the judge and setting forth the facts constituting the
grounds for disqualification of the judge. The statement shall
be presented at the earliest practicable opportunity after
discovery of the facts constituting the ground for
disqualification. Copies of the statement shall be served on
each party or his or her attorney who has appeared and shall
be personally served on the judge alleged to be disqualified, or
on his or her clerk, provided that the judge is present in the
courthouse or in chambers.
California Code of Civil Procedure § 170.3(c)(4)
(4) A judge who fails to file a consent or answer
within the time allowed shall be deemed to have
consented to his or her disqualification and the clerk
shall notify the presiding judge or person authorized to
appoint a replacement of the recusal as provided in
subdivision (a).
California Code of Civil Procedure §170.3(d)
(d) The determination of the question of the
disqualification of a judge is not an appealable order and
may be reviewed only by a writ of mandate from the
appropriate court of appeal sought only by the parties to
the proceeding. The petition for the writ shall be filed
and served within 10 days after service of written notice
of entry of the court’s order determining the question of
disqualification. If the notice of entry is served by mail,
that time shall be extended as provided in subdivision (a)
of Section 1013.
California Code of Civil Procedure §170.1(6)(A)
(6) (A) For any reason:
(i) The judge believes his or her recusal would further
the interests of justice.
(ii) The judge believes there is a substantial doubt as
to his or her capacity to be impartial.

8a

(iii) A person aware of the facts might reasonably
entertain a doubt that the judge would be able to be
impartial.
California Code of Civil Procedure §1775.5
The court shall not order a case into mediation where
the amount in controversy exceeds fifty thousand dollars
($50,000).
The determination of the amount in
controversy shall be made in the same manner as
provided in Section 1141.16 and, in making this
determination, the court shall not consider the merits of
questions of liability, defenses, or comparative negligence.
California Code of Civil Procedure §410.10
A court of this state may exercise jurisdiction on any
basis not inconsistent with the Constitution of this state
or of the United States.
California Code of Civil Procedure §425.16(b)(1)
(b)(1) A cause of action against a person arising from
any act of that person in furtherance of the person's right
of petition or free speech under the United States
Constitution or the California Constitution in connection
with a public issue shall be subject to a special motion to
strike, unless the court determines that the plaintiff has
established that there is a probability that the plaintiff
will prevail on the claim.
California Code of Civil Procedure §425.16(c)(2)
(2) A defendant who prevails on a special motion to
strike in an action subject to paragraph (1) shall not be
entitled to attorney's fees and costs if that cause of action
is brought pursuant to Section 6259 , 11130 , 11130.3 ,
54960 , or 54960.1 of the Government Code. Nothing in
this paragraph shall be construed to prevent a prevailing
defendant from recovering attorney's fees and costs
pursuant to subdivision (d) of Section 6259 , or Section
11130.5 or 54960.5, of the Government Code.
California Code of Civil Procedure §425.17(c)

9a

(c) Section 425.16 does not apply to any cause of
action brought against a person primarily engaged in the
business of selling or leasing goods or services, including,
but not limited to, insurance, securities, or financial
instruments, arising from any statement or conduct by
that person if both of the following conditions exist:
(1) The
statement or conduct consists
of
representations of fact about that person's or a business
competitor's business operations, goods, or services, that
is made for the purpose of obtaining approval for,
promoting, or securing sales or leases of, or commercial
transactions in, the person's goods or services, or the
statement or conduct was made in the course of
delivering the person's goods or services.
(2) The intended audience is an actual or potential
buyer or customer, or a person likely to repeat the
statement to, or otherwise influence, an actual or
potential buyer or customer, or the statement or conduct
arose out of or within the context of a regulatory
approval process, proceeding, or investigation, except
where the statement or conduct was made by a telephone
corporation in the course of a proceeding before the
California Public Utilities Commission and is the subject
of a lawsuit brought by a competitor, notwithstanding
that the conduct or statement concerns an important
public issue.
California Code of Civil Procedure §430.20(a)
A party against whom an answer has been filed may
object, by demurrer as provided in Section 430.30 , to the
answer upon any one or more of the following grounds:
(a) The answer does not state facts sufficient to
constitute a defense.
California Code of Civil Procedure §430.20(b)
A party against whom an answer has been filed may
object, by demurrer as provided in Section 430.30 , to the
answer upon any one or more of the following grounds:
(b) The answer is uncertain. As used in this
subdivision, “uncertain” includes ambiguous and
unintelligible.
10a

California Code of Civil Procedure §438
438.
(a) As used in this section:
(1) “Complaint” includes a cross-complaint.
(2) “Plaintiff’ includes a cross-complainant.
(3) “Defendant” includes a cross-defendant.
(b) (1) A party may move for judgment on the
pleadings.
(2) The court may upon its own motion grant a
motion for judgment on the pleadings.
(c) (1) The motion provided for in this section may
only be made on one of the following grounds:
(A) If the moving party is a plaintiff, that the
complaint states facts sufficient to constitute a cause or
causes of action against the defendant and the answer
does not state facts sufficient to constitute a defense to
the complaint.
(B) If the moving party is a defendant, that either of
the following conditions exist:
(1) The court has no jurisdiction of the subject of the
cause of action alleged in the complaint.
(ii) The complaint does not state facts sufficient to
constitute a cause of action against that defendant.
(2) The motion provided for in this section may be
made as to either of the following:
(A) The entire complaint or cross-complaint or as to
any of the causes of action stated therein.
(B) The entire answer or one or more of the
affirmative defenses set forth in the answer.
(3) If the court on its own motion grants the motion
for judgment on the pleadings, it shall be on one of the
following bases:
(A) If the motion is granted in favor of the plaintiff, it
shall be based on the grounds that the complaint states
facts sufficient to constitute a cause or causes of action
against the defendant and the answer does not state
facts sufficient to constitute a defense to the complaint.
(B) If the motion is granted in favor of the defendant,
that either of the following conditions exist:

11a

(i) The court has no jurisdiction of the subject of the
cause of action alleged in the complaint.
(ii) The complaint does not state facts sufficient to
constitute a cause of action against that defendant.
(d) The grounds for motion provided for in this
section shall appear on the face of the challenged
pleading or from any matter of which the court is
required to take judicial notice. Where the motion is
based on a matter of which the court may take judicial
notice pursuant to Section 452 or 453 of the Evidence
Code, the matter shall be specified in the notice of
motion, or in the supporting points and authorities,
except as the court may otherwise permit.
(e) No motion may be made pursuant to this section if
a pretrial conference order has been entered pursuant to
Section 575, or within 30 days of the date the action is
initially set for trial, whichever is later, unless the court
otherwise permits.
(f) The motion provided for in this section may be
made only after one of the following conditions has
occurred:
(1) If the moving party is a plaintiff, and the
defendant has already filed his or her answer to the
complaint and the time for the plaintiff to demur to the
answer has expired.
(2) If the moving party is a defendant, and the
defendant has already filed his or her answer to the
complaint and the time for the defendant to demur to the
complaint has expired.
(g) The motion provided for in this section may be
made even though either of the following conditions
exist:
(1) The moving party has already demurred to the
complaint or answer, as the case may be, on the same
gi'ounds as is the basis for the motion provided for in this
section and the demurrer has been overruled, provided
that there has been a material change in applicable case
law or statute since the ruling on the demurrer.
(2) The moving party did not demur to the complaint
or answer, as the case may be, on the same grounds as is
the basis for the motion provided for in this section.
12a

(h) (1) The motion provided for in this section may be
granted with or without leave to file an amended
complaint or answer, as the case may be.
(2) Where a motion is granted pursuant to this
section with leave to file an amended complaint or
answer, as the case may be, then the court shall grant 30
days to the party against whom the motion was granted
to file an amended complaint or answer, as the case may
be.

(3) If the motion is granted with respect to the entire
complaint or answer without leave to file an amended
complaint or answer, as the case may be, then judgment
shall be entered forthwith in accordance with the motion
granting judgment to the moving party.
(4) If the motion is granted with leave to file an
amended complaint or answer, as the case may be, then
the following procedures shall be followed:
(A) If an amended complaint is filed after the time to
file an amended complaint has expired, then the court
may strike the complaint pursuant to Section 436 and
enter judgment in favor of that defendant against that
plaintiff or a plaintiff.
(B) If an amended answer is filed after the time to file
an amended answer has expired, then the court may
strike the answer pursuant to Section 436 and proceed to
enter judgment in favor of that plaintiff and against that
defendant or a defendant.
(C) Except where subparagraphs (A) and (B) apply, if
the motion is granted with respect to the entire
complaint or answer with leave to file an amended
complaint or answer, as the case may be, but an
amended complaint or answer is not filed, then after the
time to file an amended complaint or answer, as the case
may be, has expired, judgment shall be entered forthwith
in favor of the moving party.
(i) (1) Where a motion for judgment on the pleadings
is granted with leave to amend, the court shall not enter
a judgment in favor of a party until the following
proceedings are had:
(A) If an amended pleading is filed and the moving
party contends that pleading is filed after the time to file
13a

an amended pleading has expired or that the pleading is
in violation of the court’s prior ruling on the motion, then
that party shall move to strike the pleading and enter
judgment in its favor.
(B) If no amended pleading is filed, then the party
shall move for entry of judgment in its favor.
(2) All motions made pursuant to this subdivision
shall be made pursuant to Section 1010.
(3) At the hearing on the motion provided for in this
subdivision, the court shall determine whether to enter
judgment in favor of a particular party.

California Code of Civil Procedure §581d
A written dismissal of an action shall be entered in
the clerk's register and is effective for all purposes when
so entered.
All dismissals ordered by the court shall be in the
form of a written order signed by the court and filed in
the action and those orders when so filed shall constitute
judgments and be effective for all purposes, and the clerk
shall note those judgments in the register of actions in
the case.
California Code of Civil Procedure §904.1(a)13
(13) From an order granting or denying a special
motion to strike under Section 425.16 .
California Corporations Code §§9240-9247
9240. (a) Any duties and liabilities set forth in this
article shall apply without regard to whether a director
is compensated by the corporation.
(b) Part 4 (commencing with Section 16000) of
Division 9 of the Probate Code does not apply to the
directors of any corporation.
(c) A director, in making a good faith determination,
may consider what the director believes to be:
(1) The religious purposes of the corporation; and
(2) Applicable religious tenets, canons, laws, policies,
and authority.

14a

(Amended by Stats. 1987, Ch. 923, Sec. 1.4. Operative
January 1, 1988, by Sec. 103 of Ch. 923.)
9241. (a) A director shall perform the duties of a
director, including duties as a member of any committee
of the board upon which the director may serve, in good
faith, in a manner such director believes to be in the best
interests of the corporation and with such care, including
reasonable inquiry, as is appropriate under the
circumstances.
(b) In performing the duties of a director, a director
shall be entitled to rely on information, opinions, reports,
or statements, including financial statements and other
financial data, in each case prepared or presented by:
(1) One or more officers or employees of the
corporation whom the director believes to be reliable and
competent in the matters presented;
(2) Counsel, independent accountants, or other
persons as to matters which the director believes to be
within that person’s professional or expert competence;
(3) A committee upon which the director does not
serve that is composed exclusively of any or any
combination of directors, persons described in paragraph
(1), or persons described in paragraph (2), as to matters
within the committee’s designated authority, which
committee the director believes to merit confidence; or
(4) Religious authorities and ministers, priests,
rabbis, or other persons whose position or duties in the
religious organization the director believes justify
reliance and confidence and whom the director believes
to be reliable and competent in the matters presented, so
long as, in any case, the director acts in good faith, after
reasonable inquiry when the need therefor is indicated
by the circumstances, and without knowledge that would
cause that reliance to be unwarranted.
(c) The provisions of this section, and not Section
9243, shall govern any action or omission of a director in
regard to the compensation of directors, as directors or
officers, or any loan of money or property to or guaranty
of the obligation of any director or officer. No obligation,
otherwise valid, shall be voidable merely because
15a

directors who benefited by a board resolution to pay such
compensation or to make such loan or guaranty
participated in making such board resolution.
(d) Except as provided in Section 9243, a person who
performs the duties of a director in accordance with
subdivisions (a) and (b) shall have no liability based
upon any alleged failure to discharge his or her
obligations as a director, including, without limiting the
generality of the foregoing, any actions or omissions
which exceed or defeat any purpose to which the
corporation, or assets held by it, may be dedicated.
(Amended by Stats. 2009, Ch. 631, Sec. 33. (AB 1233)
Effective January 1, 2010.)
9242. (a) Section 9241 governs the duties of directors
as to any acts or omissions in connection with the
election, selection, or nomination of directors.
(b) This section shall not be construed to limit the
provisions of Section 9241.
(Added by Stats. 1979, Ch. 681.)
9243. (a) Except as provided in subdivision (b), for
the purpose of this section, a self-dealing transaction
means a transaction to which the corporation is a party
and in which one or more of its directors has a material
financial interest and which does not meet the
requirements of paragraph (1), (2), (3), or (4) of
subdivision (d). Such a director is an “interested director”
for the purpose of this section.
(b) This section does not apply to any of the following:
(1) An action of the board fixing the compensation of
a director as a director or officer of the corporation or
making any loan of money or property to, or
guaranteeing the obligation of, any director or officer.
(2) A transaction which is part of a public, charitable
or religious program of the corporation if it (A) is
approved or authorized by the corporation in good faith
and without unjustified favoritism, and (B) results in a
benefit to one or more directors or their families because
they are in the class of persons intended to be benefited
by the public, charitable or religious program.
16a

(3) A transaction, of which the interested director or
directors have no actual knowledge, and which does not
exceed the lesser of 1 percent of the gross receipts of the
corporation for the preceding fiscal year or one hundred
thousand dollars ($100,000).
(c) Any of the following may bring an action in the
superior court of the proper county for the remedies
specified in subdivision (h):
(1) The corporation, or a member asserting the right
in the name of the corporation; however, for the purpose
of this paragraph the provisions of Section 5710 shall
apply to the action.
(2) A director of the corporation.
(3) An officer of the corporation.
(4) Any person authorized by the bylaws to bring an
action.
(d) In any action brought under subdivision (c) the
remedies specified in subdivision (h) shall not be granted
if:
(1) The Attorney General, or the court in an action in
which the Attorney General is an indispensable party,
has approved the transaction before or after it was
consummated; or
(2) The transaction is approved or ratified in good
faith by the members (Section 5034) other than the
directors, after notice and disclosure to the members of
the material facts concerning the transaction and the
director’s interest in the transaction; or
(3) The following facts are established:
(A) The corporation entered into the transaction for
its own benefit or for the benefit of the religious
organization;
(B) The transaction was fair and reasonable as to the
corporation or was in furtherance of its religious
purposes at the time the corporation entered into the
transaction;
(C) Prior to consummating the transaction or any
part thereof, the board authorized or approved the
transaction in good faith by a vote of a majority of the
directors then in office without counting the vote of the
interested director or directors, and with knowledge of
17a

the material facts concerning the transaction and the
director’s interest in the transaction. Except as provided
in paragraph (4), action by a committee of the board
shall not satisfy this paragraph; and
(D) (i) Prior to authorizing or approving the
transaction, the board considered and in good faith
determined after reasonable investigation under the
circumstances that either the corporation could not have
obtained a more advantageous arrangement with
reasonable effort under the circumstances or the
transaction was in furtherance of the corporation’s
religious purposes or (ii) in fact, either the corporation
could not have obtained a more advantageous
arrangement with reasonable effort under the
circumstances or the transaction was in furtherance of
the corporation’s religious purposes; or
(4) The following facts are established:
(A) A committee or person authorized by the board
approved the transaction in a manner consistent with
the standards set forth in paragraph (3).
(B) It was not reasonably practicable to obtain
approval of the board prior to entering into the
transaction; and
(C) The board, after determining in good faith that
the conditions of subparagraphs (A) and (B) were
satisfied, ratified the transaction at its next meeting by a
vote of the majority of the directors then in office without
counting the vote of the interested director or directors.
(e) Except as provided in subdivision (f), an action
under subdivision (c) or Section 9230 shall be
commenced within two years after written notice setting
forth the material facts of the transaction is filed with
the Attorney General in accordance with such
regulations, if any, as the Attorney General may adopt or
if no such notice is filed, five years after the cause of
action has accrued.
(f) In any action for breach of an obligation of the
corporation owed to an interested director, where the
obligation arises from a self-dealing transaction which
has not been approved as provided in subdivision (d), the
court may, by way of offset only, make any order
18a

authorized by subdivision (h), notwithstanding the
expiration of the applicable period specified in
subdivision (e).
(g) Interested directors may be counted in
determining the presence of a quorum at a meeting of
the board which authorizes, approves or ratifies a
contract or transaction.
(h) If a self-dealing transaction has taken place, the
interested director or directors shall do such things and
pay such damages as in the discretion of the court will
provide an equitable and fair remedy to the corporation,
taking into account any benefit received by the
corporation and whether the interested director or
directors acted in good faith and with intent to further
the best interest of the corporation. Without limiting the
generality of the foregoing, the court may order the
director to do any or all of the following:
(1) Account for any profits made from the transaction,
and pay them to the corporation.
(2) Pay the corporation the value of the use of any of
its property used in the transactions.
(3) Return or replace any property lost to the
corporation as a result of the transaction, together with
any income or appreciation lost to the corporation by
reason of the transaction, or account for any proceeds of
sale of the property, and pay the proceeds to the
corporation together with interest at the legal rate.
The court may award prejudgment interest to the
extent allowed in Sections 3287 and 3288 of the Civil
Code. In addition, the court may, in its discretion, grant
exemplary damages for a fraudulent or malicious
violation of this section.
(Amended by Stats. 1984, Ch. 812, Sec. 14.)
9244. (a) No contract or other transaction between a
corporation and any domestic or foreign corporation, firm
or association of which one or more of its directors are
directors is either void or voidable because such director
or directors are present at the meeting of the board or a
committee thereof which authorizes, approves or ratifies
the contract or transaction, if:
19a

(1) The material facts as to the transaction and as to
such director’s other directorship are fully disclosed or
known to the board or committee, and the board or
committee authorizes, approves or ratifies the contract or
transaction in good faith by a vote sufficient without
counting the vote of the common director or directors; or
(2) As to contracts or transactions not approved as
provided in paragraph (1) of this subdivision, the
contract or transaction is just and reasonable as to the
corporation, taking into account its religious purposes, or
is in furtherance of its religious purposes at the time it is
authorized, approved or ratified.
(b) This section does not apply to transactions
covered by Section 9243.
(Added by Stats. 1979, Ch. 681.)
9245. (a) Subject to the provisions of Section 9241,
directors of a corporation who approve any of the
following corporate actions shall be jointly and severally
liable to the corporation for:
(1) The making of any distribution.
(2) The distribution of assets after institution of
dissolution proceedings of the corporation, without
paying or adequately providing for all known liabilities
of the corporation, excluding any claims not filed by
creditors within the time limit set by the court in a notice
given to creditors under Section 9680 and those sections
made applicable to this part by Section 9680.
(3) The making of any loan or guaranty contrary to
Section 9241.
(b) Suit may be brought in the name of the
corporation to enforce the liability:
(1) Under paragraph (1) of subdivision (a) against
any or all directors liable by the persons entitled to sue
under subdivision (b) of Section 9610;
(2) Under paragraph (2) or (3) of subdivision (a)
against any or all directors liable by any one or more
creditors of the corporation whose debts or claims arose
prior to the time of the corporate action who have not
consented to the corporate action, whether or not they
have reduced their claims to judgment.
20a

(c) The damages recoverable from a director under
this section shall be the amount of the illegal distribution,
or if the illegal distribution consists of property, the fair
market value of that property at the time of the illegal
distribution, plus interest thereon from the date of the
distribution at the legal rate on judgments until paid,
together with all reasonably incurred costs of appraisal
or other valuation, if any, of that property, or the loss
suffered by the corporation as a result of the illegal loan
or guaranty.
(d) Any director sued under this section may implead
all other directors liable and may compel contribution,
either in that action or in an independent action against
directors not joined in that action.
(e) Directors liable under this section shall also be
entitled to be subrogated to the rights of the corporation
as follows:
(1) With respect to paragraph (1) of subdivision (a),
against members who received the distribution.
(2) With respect to paragraph (2) of subdivision (a),
against the members who received the distribution.
(3) With respect to paragraph (3) of subdivision (a),
against the person who received the loan or guaranty.
Any director sued under this section may file a cross­
complaint against the person or persons who are liable to
the director as a result of the subrogation provided for in
this subdivision or may proceed against them in an
independent action.
(Amended by Stats. 1999, Ch. 453, Sec. 21. Effective
January 1, 2000.)
9246. (a) For the purposes of this section, “agent”
means any person who is or was a director, officer,
employee or other agent of the corporation, or is or was
serving at the request of the corporation as a director,
officer, employee, or agent of another foreign or domestic
corporation, partnership, joint venture, trust, or other
enterprise, or was a director, officer, employee, or agent
of a foreign or domestic corporation which was a
predecessor corporation of the corporation or of another
enterprise at the request of that predecessor corporation;
21a

“proceeding” means any threatened, pending, or
completed action or proceeding, whether civil, criminal,
administrative or investigative; and “expenses” includes
without limitation attorneys’ fees and any expenses of
establishing a right to indemnification under subdivision
(d) or paragraph (3) of subdivision (e).
(b) A corporation shall have power to indemnify any
person who was or is a party or is threatened to be made
a party to any proceeding (other than an action by or in
the right of the corporation to procure a judgment in its
favor, an action brought under Section 9243, or an action
brought by the Attorney General pursuant to Section
9230) by reason of the fact that the person is or was an
agent of the corporation, against expenses, judgments,
fines, settlements and other amounts actually and
reasonably incurred in connection with the proceeding if
the person acted in good faith and in a manner the
person believed to be in the best interests of the
corporation and, in the case of a criminal proceeding, had
no reasonable cause to believe the conduct of the person
was unlawful. The termination of any proceeding by
judgment, order, settlement, conviction or upon a plea of
nolo contendere or its equivalent shall not, of itself,
create a presumption that the person did not act in good
faith and in a manner which the person believed to be in
the best interests of the corporation or that the person
had reasonable cause to believe that the person’s conduct
was unlawful.
(c) A corporation shall have power to indemnify any
person who was or is a party or is threatened to be made
a party to any threatened, pending or completed action
by or in the right of the corporation, or brought under
Section 9243, or brought by the Attorney General
pursuant to Section 9230, to procure a judgment in its
favor by reason of the fact that the person is or was an
agent of the corporation, against expenses actually and
reasonably incurred by the person in connection with the
defense or settlement of the action if the person acted in
good faith, in a manner in which the person believed to
be in the best interests of the corpoi'ation and with that
care, including reasonable inquiry, as an ordinai'y
22a

prudent person in a like position would use under
similar circumstances. No indemnification shall be made
under this subdivision:
(1) In respect of any claim, issue, or matter as to
which the person shall have been adjudged to be liable to
the corporation in the performance of the person’s duty
to the corporation, unless and only to the extent that the
court in which the proceeding is or was pending shall
determine upon application that, in view of all the
circumstances of the case, the person is fairly and
reasonably entitled to indemnity for the expenses which
the court shall determine;
(2) Of amounts paid in settling or otherwise disposing
of a threatened or pending action, with or without court
approval; or
(3) Of expenses incurred in defending a threatened or
pending action which is settled or otherwise disposed of
without court approval unless it is settled with the
approval of the Attorney General.
(d) To the extent that an agent of a corporation has
been successful on the merits in defense of any
proceeding referred to in subdivision (b) or (c) or in
defense of any claim, issue or matter therein, the agent
shall be indemnified against expenses actually and
reasonably incurred by the agent in connection therewith.
(e) Except as provided in subdivision (d), any
indemnification under this section shall be made by the
corporation only if authorized in the specific case, upon a
determination that indemnification of the agent is proper
in the circumstances because the agent has met the
applicable standard of conduct set forth in either
subdivision (b) or (c) by:
(1) A majority vote of a quorum consisting of directors
who are not parties to the proceeding;
(2) Approval of the members (Section 5034), with the
persons to be indemnified not being entitled to vote
thereon; or
(3) The court in which the proceeding is or was
pending upon application made by the corporation or the
agent or the attorney or other person rendering services
in connection with the defense, whether or not the
23a

application by the agent, attorney, or other person is
opposed by the corporation.
(f) Expenses incurred in defending any proceeding
may be advanced by the corporation prior to the final
disposition of the proceeding upon receipt of an
undertaking by or on behalf of the agent to repay the
amount unless it shall be determined ultimately that the
agent is entitled to be indemnified as authorized in this
section.
(g) No provision made by a corporation to indemnify
its or its subsidiary’s directors or officers for the defense
of any proceeding, whether contained in the articles,
bylaws, a resolution of members or directors, an
agreement or otherwise, shall be valid unless consistent
with this section. Nothing contained in this section shall
affect any right to indemnification to which persons
other than the directors and officers may be entitled by
contract or otherwise.
(h) No indemnification or advance shall be made
under this section, except as provided in subdivision (d)
or paragraph (3) of subdivision (e), in any circumstance
where it appears that:
(1) It would be inconsistent with a provision of the
articles, bylaws, a resolution of the members or an
agreement in effect at the time of the accrual of the
alleged cause of action asserted in the proceeding in
which the expenses were incurred or other amounts were
paid,
which
prohibits
or
otherwise
limits
indemnification; or
(2) It would be inconsistent with any condition
expressly imposed by a court in approving a settlement.
(i) A corporation shall have power to purchase and
maintain insurance on behalf of any agent of the
corporation against any liability asserted against or
incurred by the agent in that capacity or arising out of
the agent’s status as such whether or not the corporation
would have the power to indemnify the agent against
that liability under the provisions of this section;
provided, however, that a corporation shall have no
power to purchase and maintain insurance to indemnify

24a

any agent of the corporation for a violation of Section
9243.
G) This section does not apply to any proceeding
against any trustee, investment manager, or other
fiduciary of a pension, deferred compensation, saving,
thrift, or other retirement, incentive, or benefit plan,
trust, or provision for any or all of the corporation’s
directors, officers, employees, and persons providing
services to the corporation or any of its subsidiary or
related or affiliated corporations, in the person’s capacity
as such, even though the person may also be an agent as
defined in subdivision (a) of the employer corporation. A
corporation shall have power to indemnify the trustee,
investment manager or other fiduciary to the extent
permitted by subdivision (f) of Section 9140.
(Amended by Stats. 2012, Ch. 61, Sec. 3. (AB 2668)
Effective January 1, 2013.)
9247. (a) There shall be no personal liability for
monetary damages to a third party on the part of a
volunteer director or volunteer executive officer of a
nonprofit corporation subject to this part, caused by the
director’s or officer’s negligent act or omission in the
performance of that person’s duties as a director or
officer, if all of the following conditions are met:
(1) The act or omission was within the scope of the
director’s or executive officer’s duties.
(2) The act or omission was performed in good faith.
(3) The act or omission was not reckless, wanton,
intentional, or grossly negligent.
(4) Damages caused by the act or omission are
covered pursuant to a liability insurance policy issued to
the corporation, either in the form of a general liability
policy or a director’s or officer’s liability policy, or
personally to the director or executive officer. In the
event that the damages are not covered by a liability
insurance policy, the volunteer director or volunteer
executive officer shall not be personally liable for the
damages if the board of directors of the corporation and
the person had made all reasonable efforts in good faith
to obtain available liability insurance.
25a

(b) “Volunteer” means the rendering of services
means
without
compensation.
“Compensation”
remuneration whether by way of salary, fee, or other
consideration for services rendered. However, the
payment of per diem, mileage, or other reimbursement
expenses to a director or executive officer does not affect
that person’s status as a volunteer within the meaning of
this section.
(c) “Executive officer” means the president, vice
president, secretary, or treasurer of a corporation, or
other individual serving in like capacity, who assists in
establishing the policy of the corporation.
(d) Nothing in this section shall limit the liability of
the corporation for any damages caused by acts or
omissions of the volunteer director or volunteer executive
officer.
(e) This section does not eliminate or limit the
liability of a director or officer for any of the following:
(1) As provided in Section 9243 or 9245.
(2) In any action or proceeding brought by the
Attorney General.
(f) Nothing in this section creates a duty of care or
basis of liability for damage or injury caused by the acts
or omissions of a director or officer.
(g) This section is only applicable to causes of action
based upon acts or omissions occurring on or after
January 1, 1988.
California Corporations Code §9224(c)
9224. (c) Any director may resign effective upon
giving written notice to the chairman of the board, the
president, the secretary or the board of directors of the
corporation, unless the notice specifies a later time for
the effectiveness of such resignation. If the resignation is
effective at a future time, a successor may be elected to
take office when the resignation becomes effective.
California Evidence Code §452(d)
(d) Records of (1) any court of this state or (2) any
court of record of the United States or of any state of the
United States.
26a

California Evidence Code §452(h)
(h) Facts and propositions that are not reasonably
subject to dispute and are capable of immediate and
accurate determination by resort to sources of reasonably
indisputable accuracy.
California Government Code §87100
No public official at any level of state or local
government shall make, participate in making or in any
way attempt to use his official position to influence a
governmental decision in which he knows or has reason
to know he has a financial interest.
Miscellaneous
Order List: 589 U.S. 3/19/2020
(ORDER LIST: 589 U.S.)
THURSDAY, MARCH 19, 2020
ORDER
In light of the ongoing public health concerns relating
to COVID-19, the following shall apply to cases prior to a
ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition
for a writ of certiorari due on or after the date of this
order is extended to 150 days from the date of the lower
court judgment, order denying discretionary review, or
order denying a timely petition for rehearing. See Rules
13.1 and 13.3.
IT IS FURTHER ORDERED that motions for
extensions of time pursuant to Rule 30.4 will ordinarily
be granted by the Clerk as a matter of course if the
grounds for the application are difficulties relating to
COVID-19 and if the length of the extension requested is
reasonable under the circumstances. Such motions
should indicate whether the opposing party has an
objection.
IT IS FURTHER ORDERED that, notwithstanding
Rules 15.5 and 15.6, the Clerk will entertain motions to
delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner
needs additional time to file a reply due to difficulties
27a

Additional material
from this filing is
available in the
Clerk's Office.

